          U.S. ENVIRONMENTAL PROTECTION AGENCY
          OFFICE OF INSPECTOR GENERAL



                                         Catalyst for Improving the Environment


Interim Report




        EPA Travel Program Lacks
        Necessary Controls

        Report No. 10-P-0078 


        March 9, 2010

Report Contributors:                            Bettye Bell-Daniel
                                                Rae Donaldson
                                                Johnny Ross
                                                Bram Hass
                                                Dwayne E. Crawford
                                                Eric Lewis




Abbreviations

EPA          U.S. Environmental Protection Agency
ES           Excepted Service
FDW          Financial Data Warehouse
OCFO         Office of the Chief Financial Officer
OIG          Office of Inspector General
SES          Senior Executive Service
                       U.S. Environmental Protection Agency 	                                                 10-P-0078
                                                                                                           March 9, 2010
                       Office of Inspector General


                       At a Glance

                                                                             Catalyst for Improving the Environment


Why We Did This Review             EPA Travel Program Lacks Necessary Controls 

The Office of Inspector             What We Found
General (OIG) conducted
preliminary research to            The EPA travel program, which comprises EPA policies and GovTrip, lacks
evaluate the U.S.                  necessary control procedures to assure all travel authorizations were necessary
Environmental Protection           and in the best interest of the government. Additionally, some travelers may
Agency’s (EPA’s) management        approve their own travel without mandatory independent review of travel
controls over the GovTrip          authorizations prior to travel. As a result, EPA is unnecessarily vulnerable to
approval and authorization         fraud, waste, and abuse in its travel programs.
process.
                                   Our preliminary review covered 949 travel documents extracted from the
Background                         Financial Data Warehouse covering the period September 2008 to April 2009.
                                   Our review of these documents disclosed 199 incidents where travel appeared to
EPA travel and delegation          be self-approved by persons below the intended responsibilities of “Office
policies allow EPA Office          Director” (or equivalent). EPA’s travel policy states that self-approved travel is
Directors, Laboratory              not permitted below the level of Office Directors, Laboratory Directors, and their
Directors, and their equivalents   equivalents (presumably Senior Executive Service and Excepted Service
to approve their own travel        personnel). The employees associated with the 199 travel records we analyzed
authorizations and travel          ranged in grade from GS-12 to GS/GM-15. We will review these records during
payment vouchers. GovTrip          our field work phase for potential violations of the Agency’s travel policy.
is the single EPA travel
management system for              OCFO personnel stated that the data we used from the Financial Data Warehouse
scheduling, approving, and         were unreliable; however, OCFO urges use of this data in support of Agency
auditing travel authorizations     financial transactions and thus the Agency’s financial statements. We intend to
and travel payments. The           assess the reliability of the GovTrip data in the Financial Data Warehouse as part
General Services                   of our review.
Administration is the federal
manager for GovTrip and the        Poor internal controls also allow personnel to change the routing chain for travel
Office of the Chief Financial      approval without notifying their supervisor of record. EPA travel policy requires
Officer (OCFO) manages             personnel to route travel requests to officials with the authority to authorize their
GovTrip for EPA.                   travel. However, personnel can circumvent this requirement by requesting a
                                   routing change to the Agency’s GovTrip helpdesk, or by making the change
For further information,
                                   electronically through the GovTrip system. Consequently, through collusion or
contact our Office of              compromise of an approving official’s account, an individual could use
Congressional, Public Affairs      government funds for unauthorized or personal travel.
and Management at
(202) 566-2391.                    This interim report is for information only and does not represent any final
To view the full report,           conclusions or recommendations by the OIG. However, given the potential
click on the following link:       significance of the areas of vulnerabilities identified, we are providing our
www.epa.gov/oig/reports/2010/      preliminary findings for information purposes.
20100309-10-P-0078.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL



                                          March 9, 2010

MEMORANDUM

SUBJECT:              EPA Travel Program Lacks Necessary Controls
                      Report No. 10-P-0078


FROM:                 Wade T. Najjum
                      Assistant Inspector General
                      Office of Program Evaluation

TO:                   Barbara Bennett
                      Chief Financial Officer


The Office of the Inspector General (OIG) is providing this interim report on the results of our
preliminary research regarding the U.S. Environmental Protection Agency’s (EPA’s)
management controls governing travel authorization and the approval of travel vouchers using
the GovTrip travel system. OIG managers became aware that an OIG employee acknowledged
that the employee could authorize his or her own travel despite not meeting the criteria to do so
under the Agency’s Travel Policy. Subsequently, the OIG conducted preliminary research to
evaluate EPA’s management controls over the GovTrip approval and authorization process.
Specifically, we wanted to determine whether these controls are adequate to prevent
unauthorized and unapproved travel using the GovTrip system.

We found three potential areas of vulnerability during our preliminary research:

   •	 The EPA travel program, which comprises EPA policies and GovTrip, lacks necessary
      control procedures to assure all travel authorizations were necessary and in the best
      interest of the government.

   •	 Agency implementation of GovTrip allows some individuals authority to authorize their
      own travel. Of 949 travel documents reviewed since GovTrip was implemented in
      September 2008, we noted 199 incidents where travel appeared to be self-approved by
      persons below the intended responsibilities of “Office Director” (or equivalent).

   •	 Poor internal controls also allow personnel to change the routing chain for travel approval
      without notification of their supervisor of record.
Given the potential significance of the vulnerabilities identified, we are providing the results of
our preliminary review for information purposes only. The OIG has not completed its overall
analysis of these issues; therefore, this interim report does not represent any final
recommendations or conclusions by the OIG. We plan to conduct further analysis during our
field work phase to evaluate whether the Agency has adequate management controls to ensure
travel documents are properly routed and authorized through use of the GovTrip system.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect and the time – is $548,603.

If you or your staff have any questions regarding this report, please contact me at 202-566-0832
or najjum.wade@epa.gov, or Eric Lewis at 202-566-2664 or lewis.eric@epa.gov.
EPA Travel Program Lacks Necessary Controls                                                                                     10-P-0078




                                         Table of Contents 

Purpose .............................................................................................................................   1


Background .......................................................................................................................      1    


Scope and Methodology ..................................................................................................                3    


Results of Preliminary Research.....................................................................................                    3    


Conclusion ........................................................................................................................     7    


Status of Recommendations and Potential Monetary Benefits....................................                                           8    




Appendix
    A        Distribution .........................................................................................................
    9
                                                                                           10-P-0078



Purpose
    The Office of the Inspector General (OIG) conducted preliminary research to evaluate the
    U.S. Environmental Protection Agency’s (EPA’s) management controls over the GovTrip
    approval and authorization process. Specifically, we sought to determine whether these
    controls are adequate to prevent unauthorized and unapproved travel using the GovTrip
    system.

    This interim report is for information purposes and does not include any final
    recommendations or conclusions by the OIG.

Background
    EPA implemented the GovTrip system in September 2008. GovTrip is a large, complex,
    distributed computing system that provides federal travelers with completely automated
    travel planning and reimbursement capabilities. The system allows for the electronic
    submission of travel authorizations and travel vouchers for the approval and
    reimbursement of government travel.

    •	 Travelers and Travel Preparers use GovTrip to arrange all aspects of transportation,
       including to submit a request for and receive reimbursement quickly after travel.
    •	 Approving Officials use GovTrip to monitor and manage all necessary
       authorizations, disbursements, and reimbursements.
    •	 Federal Agency Travel Administrators use GovTrip to set up and maintain data for
       organizations, groups, routing lists, and individual users.

    Common procedures for processing travel authorizations and travel vouchers using the
    GovTrip system are shown in Figure 1.

    Figure 1: Agency Procedures for Processing Travel Documents
                    Travel Authorizations                                  Travel Vouchers
      •   Traveler/preparer creates the travel                •   Traveler/preparer creates the travel
          authorization.                                          voucher.
      •   The travel authorization is routed to Authorizing   •   The travel voucher is routed to
          Official who reviews and stamps the document            Authorizing Official who reviews and
          “authorized.”                                           authorizes the travel voucher.
      •   Travel authorization routed to Approver who         •   Cincinnati Travel Team reviews the
          verifies lines of accounting and approves               travel voucher for payment.
          document.
    Source: GovTrip Supplemental Training Packet.

    When a trip is complete, the federal traveler files a voucher that is electronically routed
    for approval and sent to the Agency’s Finance and Accounting Department. An
    electronic funds transfer or a check to the traveler completes the process.




                                                    1

                                                                                                    10-P-0078



        EPA Delegations Manual

        EPA 1200 Delegations Manual establishes Agency policy governing the delegation
        process for Agency management officials to act on behalf of the Administrator.
        According to this policy, authority may be re-delegated only when allowed in the specific
        delegation, and re-delegations must be made sequentially from one level to the next
        (e.g., Assistant Administrator to Office Director to Division Director, rather than from the
        Assistant Administrator directly to a Division Director). Further, the policy states that
        the original delegate must keep a written record of all re-delegations of authority to the
        lowest permissible organizational level or individual exercising the authority. However,
        the re-delegation of authority does not exonerate the original delegate or interim levels
        from responsibility or accountability.

        EPA Travel Policy

        EPA’s 1200 Delegations Manual establishes the authority for the authorization and
        approval of both domestic and international travel and certain travel-related activities.
        Chapter 1-17-A (domestic travel), Part 1.n, establishes the authority for the authorization
        and approval of one’s own travel authorizations and travel vouchers. Such authority is
        delegated to the Deputy Administrator, Chief of Staff, Assistant Administrators, Deputy
        Chief of Staff, Chief Financial Officer, General Counsel, Inspector General, and Regional
        Administrators.

        Under Chapter 1-17-A, authority granted under Part 1.n may only be re-delegated to:

            •	 The Deputy Chief of Staff in the Office of the Administrator
            •	 Office Directors (excluding the Office of the Administrator)
            •	 Directors, Office of Administration and Resources Management, Cincinnati and
               Research Triangle Park
            •	 Directors of Laboratories
            •	 Office of Research and Development Laboratory/Center/Office Directors (or
               equivalents)

        According to EPA’s travel policy, further re-delegation by these officials is not permitted.

        Office of Management and Budget Circular A-123

        Office of Management and Budget Circular A-123, Management’s Responsibility for
        Internal Control, states that control activities are the policies and procedures that help
        ensure that management directives are carried out and that management’s assertions in its
        financial reporting are valid. Management’s assertions should include an understanding
        of the control activities applicable at the entity level, such as segregation of duties.1



1
 Office of Management and Budget Circular No. A-123, Section III, Part B.3 – Control Environment, revised
December 21, 2004.


                                                       2

                                                                                       10-P-0078



     Segregation of duties is a control activity that ensures there are separate personnel with
     authority to authorize a transaction, process the transaction, and review the transaction.

Scope and Methodology
     We conducted our review in accordance with generally accepted government auditing
     standards. Those standards require that we adequately plan for the audit; properly
     supervise audit staff; obtain sufficient, appropriate evidence to provide a reasonable basis
     for our findings and conclusions; and prepare audit documentation related to the
     planning, conducting, and reporting for each audit. We believe that the evidence
     obtained to date provides a reasonable basis for the information being reported based on
     the purpose of our review.

     We conducted preliminary research from March 2009 through March 2010, during which
     time we analyzed EPA travel data extracted from the Agency’s Financial Data
     Warehouse (FDW) maintained by the Office of the Chief Financial Officer (OCFO).
     These data represented 949 travel documents processed by EPA using the GovTrip
     system. We analyzed travel records that met the following criteria:

        •	 Transactions processed from September 2008 to April 2009.
        •	 Name of authorizer on transaction equaled name of traveler.
        •	 Name of authorizer on transaction equaled name of signer.

     We analyzed travel data, downloaded from the FDW on May 19, 2009, that represented
     travelers who authorized their own travel documents. According to policy, the
     re-delegation of this authority for these records should have been done sequentially and
     to the lowest organizational level of Office Directors, Laboratory Directors, and their
     equivalents. We also analyzed travel data, downloaded on July 22, 2009, to determine
     whether there was any information overlap since May 19, 2009. We determined there
     were no differences in the results of analysis performed between these two periods.

Results of Preliminary Research
     The results of our preliminary research analysis showed the following:

        •	 The EPA travel program, which comprises EPA policies and GovTrip, lacks
           necessary control procedures to assure all travel authorizations were necessary
           and in the best interest of the government. For instance, EPA’s current domestic
           travel policy allows some travelers the authority to approve their own travel
           without mandatory independent review of travel authorizations or travel vouchers.
           As a result, EPA is unnecessarily vulnerable to fraud, waste, and abuse in its
           travel programs.

        •	 Of the 949 travel documents reviewed, we found 199 incidents where travel
           appeared to be self-approved by persons below the intended responsibilities of
           “Office Director” (or equivalent). EPA’s travel policy states that self-approved


                                               3

                                                                                 10-P-0078



       travel is not permitted below the level of Office Directors, Laboratory Directors,
       and their equivalents (presumably grade level of Senior Executive Service (SES)
       or Excepted Service (ES)). The grade level of employees associated with the 199
       incidents ranged from GS-12 to GS/GM-15.

   •	 Poor internal controls also allow personnel to change the routing chain for travel
      approval without notification of their supervisor of record. EPA travel procedures
      require personnel to route travel requests through authorizing officials. However,
      personnel can circumvent this requirement by requesting a change through the
      Agency’s GovTrip helpdesk, or by making the change electronically through the
      GovTrip system. The routing change allows the requestor to “pick” who
      approves the travel authorization. Consequently, through collusion or
      compromise of an approving official’s account, it is possible for an individual to
      use government funds for unauthorized travel.

Analysis of Delegation of Authority for Travel

EPA’s travel policy establishes authority for certain Agency officials to approve their
own travel authorizations and travel vouchers for domestic travel. Such authority is
delegated to the Deputy Administrator, the Chief of Staff, Assistant Administrators and
Deputy Chief of Staff, the Chief Financial Officer, the General Counsel, the Inspector
General, and EPA Regional Administrators. Further re-delegation of this authority is not
permitted for international travel.

However, the current domestic travel policy does not include requirements for a
mandatory independent review of the travel authorizations submitted by the officials
stated above (presumably employees at the SES and ES level) prior to travel to
determine whether intended travel is in the best interest of the Agency. Consequently,
abusive or fraudulent travel and/or travel payments may occur without independent
Agency review.

We identified 27 SES/ES employees who approved their own travel authorizations and
travel vouchers since September 2008. We plan to review travel records corresponding
to travel taken by these 27 employees to determine what procedures, if any, were
followed to perform an independent review of their travel justifications and whether the
travel was in the best interest of the Agency.

Analysis of Re-delegation Authority for Travel

EPA’s travel policy states the re-delegation of authority for the self-authorization of
travel is not permitted below the level of Office Directors, Laboratory Directors, or their
equivalent. This would indicate that only selected SES/ES personnel are intended to be
eligible for this authority. We advised OCFO managers that some GS-12/13 personnel
appeared to have this authority. These OCFO managers responded that the title of Office
Director varies within individual program and regional offices because the delegation of
authority is related to position and not grade level. Consequently, various interpretations
of the Agency’s travel policy may be resulting in situations where persons below the


                                         4

                                                                                                              10-P-0078



         intended responsibilities of “Office Director” (or equivalent) may be granted the
         authority to authorize their own travel. In our opinion, we do not believe that any
         personnel, including SES/ES personnel, should be allowed to approve their own travel.
         Self-approval results in no segregation of duties over this process as required by Office of
         Management and Budget Circular A-123.2 As a result, EPA’s re-delegation of authority
         allowing individuals self-approval of travel is a control weakness in the Agency’s travel
         process.

         We identified 199 travel documents successfully authorized by EPA employees whose
         grade levels ranged from GS-12 to GS/GM-15. Figures 2 and 3 represent the results of
         our analysis regarding these incidents.

    Figure 2: Incidents by Organization
                                                                                                  Number of
                                  Organizational Office                                           Incidents
     Administrator                                                                                       1
     Assistant Administrator for International Affairs                                                   1
     Assistant Administrator for Research and Development                                               20
     Assistant Administrator for Enforcement and Compliance Assurance                                   49
     Assistant Administrator for Administration and Resources Management                                 6
     Assistant Administrator for Air and Radiation                                                      18
     Assistant Administrator for Prevention, Pesticides and Toxic Substances                             4
     Assistant Administrator for Solid Waste and Emergency Response                                      7
     Assistant Administrator for Water                                                                  12
     Office of Environmental Information                                                                 2
     Office of General Counsel                                                                           2
     Office of Inspector General                                                                         6
     Region 2 New York                                                                                   1
     Region 3 Philadelphia                                                                               9
     Region 4 Atlanta                                                                                   16
     Region 5 Chicago                                                                                   18
     Region 6 Dallas                                                                                    14
     Region 7 Kansas City                                                                                2
     Region 10 Seattle                                                                                   7
     Organization not shown                                                                              4
                                            Total                                                       199
    Source: OIG analysis of Agency travel documents extracted from the Financial Data Warehouse, April 2009.




2
  Office of Management and Budget Circular A-123, Section III, Assessing Internal Control over Financial
Reporting discusses the significance of the control environment and control activity on financial reporting.
Section III, Part 3 identifies segregation of duties as a key control activity for management’s assertions that its
financial reporting is valid.



                                                            5

                                                                                           10-P-0078


                            Figure 3: Incidents by Grade
                                Grade                 Number of Incidents
                             GS-12                             1
                             GS-13                           11
                             GM/GS-14                        80
                             GM/GS-15                       107
                             Total                             199
                            Source: OIG analysis of Agency travel documents extracted
                            from the Financial Data Warehouse, April 2009.

          We briefed OCFO management in July 2009 regarding these incidents. OCFO managers
          stated that the data we used from the FDW were unreliable; however, OCFO urges the
          OIG to use this data in support of Agency financial transactions and thus the Agency’s
          financial statements. Further, these OCFO managers agreed that the Agency’s policy
          could be revised pending further confirmation of the OIG’s preliminary research results.
          According to these managers, the current travel policy was a collection of several older
          travel manuals, and OCFO had not recently reviewed its overall content. The most recent
          date of the Agency’s Delegation of Authority for domestic travel is July 24, 2008.

          We intend to assess the reliability of the GovTrip data in the FDW as part of our field
          work review. Further, we will review the determining factors used to re-delegate
          authority to individuals to self-authorize and self-approve travel, and determine whether
          these actions adhere to the intent of Agency’s travel policy.

          Analysis of the Routing for Travel Documents

          According to the GovTrip Document Processing Manual,3 through GovTrip, Federal
          Agency Travel Administrators are able to establish document routing based on
          organization and type of action, and automatically verify compliance with travel policy.
          GovTrip procedures require that travel authorizations and travel vouchers be routed to
          officials with the authority to authorize travel. However, based on tests conducted by the
          OIG, we found that routing changes could be made through the Agency’s GovTrip
          helpdesk or electronically through the GovTrip system without the consent or knowledge
          of the supervisor of record.

          We conducted two tests to determine the effectiveness of management controls over the
          routing of travel documents. One test involved an OIG employee submitting an e-mail to
          the Agency’s GovTrip helpdesk requesting a routing change for the processing of that
          employee’s travel documents. A second test conducted using the GovTrip system
          involved an employee changing the name of the designated authorizing official for the
          routing of the employee’s travel documents. Both tests resulted in successfully changing
          the routing for these individuals’ travel documents to someone other than their designated
          authorizing officials without the consent or notification of their supervisors of record.



3
    GovTrip Document Processing Manual, Version 3.0, updated March 6, 2009.


                                                       6

                                                                                     10-P-0078



    We were told by an OCFO manager familiar with the Agency’s travel process that it is
    the responsibility of individual program and regional offices to maintain the accuracy of
    their routing chains for travel document processing. This manager stated that it is
    impossible for the GovTrip helpdesk to verify these established routing chains because of
    the frequency with which the names of authorizing officials change. Further, this
    manager stated the Agency has no formal written procedures for this process. Rather,
    most EPA program and regional offices continue to rely on routing chains established
    under the old Travel Manager system.

    These procedures allow personnel to change the routing chain for travel approval without
    notification of the supervisor of record. Consequently, through collusion or compromise
    of an approving official’s account, an individual could use government funds for
    unauthorized or personal travel. We plan to evaluate this issue further during our field
    work phase.

Conclusion

       •	 The EPA travel program, which comprises EPA policies and GovTrip, lacks
          necessary control procedures to assure all travel authorizations were necessary
          and in the best interest of the government.

       •	 Agency implementation of GovTrip allows some individuals authority to
          authorize their own travel. Of 949 travel documents reviewed since GovTrip was
          implemented in September 2008, we noted 199 incidents where travel appeared to
          be self-approved by persons below the intended responsibilities of “Office
          Director” (or equivalent).

       •	 EPA personnel can change the routing of their travel documents without the
          consent or knowledge of their supervisor of record.

    We make no recommendations in this interim report and no response is necessary. We
    are providing our preliminary findings for information purposes only given the potential
    significance of the areas of vulnerabilities identified.

    We plan to conduct further field work concerning these travel controls to determine
    whether (1) necessary control procedures are in place to help ensure that all travel
    authorizations were necessary and in the best interest of the government, (2) EPA’s travel
    policy governing the re-delegation of authority for self-approval of travel was carried out
    consistently Agency-wide, and (3) program and regional offices had control procedures
    to help ensure that supervisors approved all routing changes.




                                             7

                                                                                                                            10-P-0078



                                Status of Recommendations and
                                  Potential Monetary Benefits

                                                                                                                  POTENTIAL MONETARY
                                                  RECOMMENDATIONS                                                  BENEFITS (in $000s)

                                                                                                      Planned
    Rec.   Page                                                                                      Completion   Claimed    Agreed To
    No.     No.                         Subject                       Status1      Action Official      Date      Amount      Amount

                                 No recommendations




1      O = recommendation is open with agreed-to corrective actions pending
       C = recommendation is closed with all agreed-to actions completed
       U = recommendation is undecided with resolution efforts in progress




                                                                              8

                                                                                      10-P-0078




                                                                                  Appendix A

                                     Distribution

Office of the Administrator
Chief Financial Officer
Deputy Chief Financial Officer
Acting Director, Office of Financial Services, Office of the Chief Financial Officer
Acting Director, Office of Financial Management, Office of the Chief Financial Officer
Associate Staff Director, Office of Financial Management, Office of the Chief Financial Officer
Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Audit Follow-up Coordinator, Office of the Chief Financial Officer
Acting Inspector General




                                               9

